<html>
<title> - ONE YEAR OF PROGRESS: AN UPDATE ON IMPLEMENTATION OF THE NUCLEAR ENERGY INNOVATION AND MODERNIZATION ACT</title>
<body><pre>[Senate Hearing 116-172]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-172

                   ONE YEAR OF PROGRESS: AN UPDATE ON
                  IMPLEMENTATION OF THE NUCLEAR ENERGY
                    INNOVATION AND MODERNIZATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-225 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 15, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Doane, Margaret, Executive Director of Operations, U.S. Nuclear 
  Regulatory Commission..........................................     5
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Barrasso.........................................    16
        Senator Van Hollen.......................................    23
        Senator Whitehouse.......................................    29
Ficks, Ben, Jr., Deputy Chief Financial Officer, U.S. Nuclear 
  Regulatory Commission..........................................    37
    Prepared statement...........................................    39
    Responses to additional questions from:
        Senator Barrasso.........................................    44
        Senator Whitehouse.......................................    49

 
ONE YEAR OF PROGRESS: AN UPDATE ON IMPLEMENTATION OF THE NUCLEAR ENERGY 
                    INNOVATION AND MODERNIZATION ACT

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Braun, Rounds, 
Sullivan, Ernst, Cardin, Whitehouse, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Nuclear power is a reliable, clean source of energy. 
Nuclear power plants generate electricity 24 hours a day, 7 
days a week, 365 days a year.
    Nuclear energy is also resilient. It produces power through 
cold snaps, through heat waves, and through snowstorms, and it 
does so without emitting carbon dioxide. Preserving and 
expanding our use of nuclear energy is necessary to address 
climate change.
    Our Nation's nuclear power plants are operating at 
historically high levels of safety and performance. Despite 
this, challenging electricity markets have led to a shrinking 
nuclear energy. It is time to reverse this trend.
    To do so, the Committee led efforts to pass the Nuclear 
Energy Innovation and Modernization Act, or NEIMA. Congress 
overwhelmingly supported this bipartisan legislation. One year 
ago, President Trump signed the bill into law.
    This morning, we will review the Nuclear Regulatory 
Commission's implementation of that law. The law provides 
certainty to assist today's nuclear power plants. The law 
revises how the Nuclear Regulatory Commission manages its 
finances.
    This is important for a number of reasons. One is to 
provide predictable regulatory costs for nuclear utilities. The 
law prioritizes agency spending on activities that directly 
support its regulatory mission. It establishes performance 
metrics and milestone schedules to increase accountability and 
certainty for major licensing actions.
    The law also requires the commission to take both short 
term and long term actions to develop and deploy advanced 
nuclear technologies. Advanced reactors will be designed 
differently than current nuclear reactor designs. Smaller, 
safer nuclear technologies should not be subject to the rigid 
costly requirements imposed on yesterday's designs.
    The law requires a modernization of nuclear safety rules. 
The commission has taken important initial steps to implement 
the bill. In December, the commission approved a proposed rule 
for emergency planning for advanced nuclear reactors.
    The commission also approved a first of its kind permit for 
the Tennessee Valley Authority to site a small modular reactor. 
I applaud the commission for the efforts so far. Still a lot of 
work to do.
    The new financial management requirements take effect in 
the upcoming fiscal year. The commission's forthcoming budget 
must be in line with the law's intent. American ratepayers and 
nuclear licensees fund the organization. As a result, budgetary 
resources must be responsibly managed.
    As nuclear power plants shut down, the agency must make 
real reductions of staff and resources proportionate with the 
reduced workload. Within the next year, the commission must 
establish a strategy to license advanced technologies using the 
existing regulatory framework. This short term approach 
complements the long term development of a new regulatory 
framework.
    The commission must be smart about developing new safety 
regulations. America's nuclear innovators and entrepreneurs 
need confidence that the licensing process is predictable and 
affordable. The rules should appropriately reflect the 
increased performance and lower risk of new reactor designs.
    As the commission continues to implement the law, other key 
nuclear energy issues must be addressed. The significant 
benefits of clean nuclear energy will be limited until 
Washington keeps its promise to permanently dispose of nuclear 
waste.
    Advanced nuclear technologies can generate less nuclear 
waste. Some may even produce electricity from previously used 
nuclear fuel. Advanced nuclear technologies cannot eliminate 
the need for a permanent nuclear waste program. Legislation 
that I have introduced will help get our Nation's nuclear waste 
program back on track.
    Another critical issue is the source of our nuclear fuel. 
America's uranium miners are struggling to stay in business due 
to Russia's manipulation of the uranium market. Many of those 
hard working miners live in my home State of Wyoming.
    Six months ago, President Trump recognized the national 
security implications of relying on foreign countries for 
uranium. He established a nuclear fuel working group to 
recommend actions to revive our nuclear fuel cycle. We are 
still waiting for those recommendations from the working group.
    American uranium producers need immediate assistance and 
certainty. It is time for action. The 1 year anniversary of the 
Nuclear Energy Innovation and Modernization Act becoming law 
gives us a great opportunity to discuss these important issues 
facing America's nuclear energy industry. Nuclear power is 
clean, reliable, and carbon-free. We must continue to support 
this important energy technology.
    I will now turn to Ranking Member Carper for his opening 
remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Thanks so much for 
bringing us together, for your leadership on this, and that of 
others on our Committee.
    Ms. Doane, it is great to see you. Thank you for coming.
    Mr. Ficks, I have a son named Ben. It is always nice to see 
that name. We welcome both of you today.
    I have a statement here. I am going to go ahead and read 
it, and then I am just going to talk a little bit off the cuff, 
and then we will get started.
    Mr. Chairman, thanks again for bringing us together to 
discuss the implementation of the Nuclear Energy Innovation and 
Modernization Act, known as NEIMA.
    Thank you to each of our witnesses, for your service at the 
Nuclear Regulatory Commission, and for joining us. It is not 
every day that we have folks like you, who do a lot of the real 
work. We are thrilled that you were able to come.
    From the very start of our Nation, our country has faced 
daunting challenges that at first seemed impossible to 
overcome, but with support from Federal, State, and local 
governments, Americans have always found a way to innovate and 
find solutions to overcome these challenges.
    Not all of those solutions come from Washington. They come 
from all over--every corner of this land and around the world--
and we welcome that.
    Today we face the greatest environmental crisis I think we 
are likely ever to face, certainly in my lifetime, probably in 
our lifetime; that is climate change, extreme weather. If we 
are going to meet the challenges of climate change, we must do 
more to spur zero emitting technologies here at home and around 
the world.
    Nuclear power is a prime example of how we can combat 
climate change and provide economic opportunities for 
Americans. Done responsibly, nuclear power helps our Nation 
reduce both our reliance on dirtier fuels and air pollution 
that damages our lungs and our climate.
    At the same time, we know that when the United States leads 
on nuclear energy, it opens up good paying manufacturing, 
construction, and operating job opportunities for Americans 
nationwide.
    Nuclear energy provides about 20 percent of our Nation's 
energy. However, our existing reactors cannot run forever. I 
said 20 percent of our Nation's energy, about 50 percent of our 
carbon-free energy. That is an important point.
    If we are smart about it, we will replace our aging nuclear 
reactors with new advanced technology developed here at home. 
Domestic technology that is safer produces less spent fuel, and 
it is cheaper to build and to operate.
    The Chairman, myself, and many other cosponsors of this 
bill hope that this legislation will be the catalyst needed for 
advanced nuclear technology to become a reality for this 
country. We look forward to our conversations today with our 
friends from NRC to discuss its implementation and whether or 
not our hopes have yet been realized.
    I believe that NEIMA was an important step to address 
climate change, but it is only a drop in the bucket when it 
comes to climate solutions. If we are going to stem the tide of 
climate change, so much more needs to be done, and we need to 
do it fast.
    The Federal Government needs to be galvanized to address 
the climate crisis and move our country to reach net zero 
greenhouse gas emissions, sooner rather than later. What that 
takes is leadership from our President, and we are just not 
seeing that today.
    Instead, we have seen an Administration that promotes 
policies that undermine climate science and increase our 
dependence on dirty energy policies that are, quite frankly, 
sending the wrong message to those who are interested in 
investing in advanced nuclear and other zero emitting 
technologies. These actions send the wrong message that 
threatens Americans competitiveness in the global clean energy 
economy and the health of every American.
    To put this in context, the country of Australia is on 
fire. We have been seeing it on television, hearing it on the 
media for days; 15.3 million acres have been destroyed. That is 
larger than Senator Capito's and my native State of West 
Virginia. Imagine that. We are told that a billion animals and 
birds have been killed. A lot of species that were endangered 
are going to be extinct, are extinct now.
    This is right in front of us. Right in front of us. If that 
doesn't get somebody's attention and say we need to do 
something to address this crazy weather and climate change, 
climate crisis, then we are in the wrong business.
    There a lot of different ways to do that. Senator 
Whitehouse, Senator Sullivan, and I were, earlier this morning, 
at an industry led gathering that is focusing on recycling of 
packaging, and finding ways to do that more sustainably, 
smartly, wisely. There is a role for us. There is a role for 
the private sector. There is a role for Government, too.
    I had lunch earlier this week in Salisbury, Maryland--your 
State--with a fellow who is the CEO of Purdue, the folks who 
raise a lot of chickens. They have just done a business merger 
with a company that is involved in using European, German 
technology to be able to take poultry waste--chicken waste--
which we have a lot of on the Delmarva Peninsula--and turn it 
into clean fuel that can create a lot of electricity for folks 
who need electricity in their homes and their businesses and do 
so in a way that is sustainable and good for the environment. 
Very exciting stuff.
    Then we have all kinds of ways we can reduce the climate 
threat. Nuclear is good. Done badly, done unwisely, not good. 
There are ways to do this smart, and if we are really smart, we 
will find ways to do this in a way that protects our safety, 
find ways to actually recycle or reuse spent fuel rods to 
derive additional energy from them.
    There is a lot of opportunity here. In adversity lies 
opportunity, and this is one of the opportunities.
    I am delighted to be able to be with you.
    All the years I served in the Navy, for 27 years, including 
my time as a midshipman, has been on ships, on aircraft 
carriers, nuclear submarines. We are about to launch the U.S.S. 
Delaware, fast attack nuclear submarine commissioned Delaware 
on April 4th deploying to Wilmington.
    I have known people who served in the nuclear Navy forever. 
I don't think there has ever been a life that has been lost in 
the nuclear Navy in 50 years. In 50 years, all the sailors that 
have been on the ships, submarines, aircraft carriers, not one 
life lost because of nuclear initiative.
    On this day, in this country, we are going to see probably 
dozens of people die because of air pollution, because of 
breathing air that is, frankly--electricity that is not 
produced by carbon-free sources like nuclear. So this is kind 
of a life and death matter for all of us.
    I am thrilled that we are here; thank you.
    Senator Barrasso. Thank you very much, Senator Carper.
    We will now hear from our two witness. Margie Doane is 
here, who is the Executive Director of Operations of the U.S. 
Nuclear Regulatory Commission, and Ben Ficks, who is the Deputy 
Chief Financial Officer of the U.S. Nuclear Regulatory 
Commission.
    I would like to remind both of you that your full written 
testimony will be made part of the official record, so please 
try to keep your statements to 5 minutes so that we may have 
time for questions. We look forward to the testimony.
    Ms. Doane, would you please begin?

STATEMENT OF MARGARET DOANE, EXECUTIVE DIRECTOR OF OPERATIONS, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Doane. Good morning, Chairman Barrasso, Ranking Member 
Carper, and distinguished members of the Committee.
    I appreciate the opportunity to appear this morning with 
the Deputy Chief Financial Officer, Mr. Ben Ficks, to testify 
on the U.S. Nuclear Regulatory Commission's progress in 
implementing the requirements of the Nuclear Energy Innovation 
and Modernization Act, or NEIMA.
    Over the past year, the NRC staff has successfully 
implemented NEIMA's requirements and met all of NEIMA related 
deadlines. I attribute the NRC's success to the unparalleled 
focus, commitment, and hard work of the NRC staff. It is their 
expertise, knowledge, and collaborative efforts that allow the 
NRC to meet all deadlines, including timely submitting nine 
NEIMA related reports since April 2019 on topics ranging from 
emergency preparedness, to accident-tolerant fuel, to advanced 
reactor licensing.
    Speaking of advanced reactors, the NRC has been preparing 
for the licensing of advanced reactors for several years, and 
is ready to review potential near term applications, the first 
of which is anticipated this month. Notably, this past May, the 
staff issued a draft regulatory guide for a technology 
inclusive, risk informed, and performance based licensing 
approach for advanced reactor licensing.
    This effort was informed by the NRC's staff interactions 
with the Licensing Modernization Project, a DOE cost shared 
initiative being led by Southern Company and coordinated by the 
Nuclear Energy Institute. The staff's regulatory guide will 
serve as a foundation for the rulemaking to establish a 
technology inclusive regulatory framework for advanced 
reactors.
    The staff has also made significant progress in 
implementing risk informed and performance based techniques and 
guidance for the resolution of numerous policy issues regarding 
new reactors. For instance, the commission recently approved 
the use of more realistic approaches for estimating the 
potential radiological consequences of new reactor 
technologies.
    These approaches recognize that nuclear reactor designs of 
the future may look very different compared to the operating 
reactors of today. For example, they may be much smaller and 
have enhanced safety features.
    NRC remains committed to regulating in a transparent manner 
to provide reasonable assurance of adequate protection of 
public health and safety in its review of new reactor 
technologies.
    Other highlights of the staff's activities under NEIMA 
include our development of staff training on various advanced 
reactor technologies and the agreements we reached with the 
Department of Energy to share technical expertise and 
knowledge.
    In addition, we conducted 11 public meetings--more than 
NEIMA requires--at various locations throughout the country on 
best practices for community advisory boards regarding reactor 
decommissioning.
    As a complement to the staff's work under NEIMA, the NRC 
continues to conduct activities in support of transformation 
into a modern, risk informed regulator. For example, in 2019, 
the NRC completed its merger of the Office of Nuclear Reactor 
Regulation and the Office of New Reactors. They are now one 
office under the office of Nuclear Reactor Regulation.
    This organizational change is reflective of the broader 
changes within the nuclear industry, and most importantly, 
helps ensure the agency is better suited for meeting its safety 
and security mission in an evolving future.
    I thank the Committee for its continued interest and 
support as we implement this important piece of legislation.
    Chairman Barrasso, Ranking Member Carper, and distinguished 
members of the Committee, this concludes my oral testimony. On 
behalf of the NRC staff, thank you for this opportunity to 
appear before you and for your support of our vital mission.
    [The prepared statement of Ms. Doane follows:]
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
    Senator Barrasso. Thank you, Ms. Doane.
    Mr. Ficks.

 STATEMENT OF BEN FICKS, JR., DEPUTY CHIEF FINANCIAL OFFICER, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Ficks. Good morning, Chairman Barrasso, Ranking Member 
Carper, and distinguished members of the Committee.
    I appreciate the opportunity to appear this morning to 
testify on the U.S. Nuclear Regulatory Commission's activities 
and progress implementing Sections 101, 102, and 202 of NEIMA, 
for which the Office of the Chief Financial Officer has the 
lead.
    The NRC is developing the fiscal year 2020 draft fee rule 
consistent with NEIMA such that the development of the 
regulatory infrastructure for advanced nuclear reactor 
technologies, including activities required under Section 103 
of NEIMA, is not recovered through fees.
    Section 102 caps the operating reactor licensee annual fee, 
caps the NRC corporate costs at 30 percent of the annual budget 
request for fiscal year 2021, and requires anticipated 
expenditures for requested activities of the commission to be 
identified in the annual budget justification.
    The budget formulation process and associated systems have 
been modified to implement these changes, and the fiscal year 
2021 congressional budget justification and the fiscal year 
2021 fee rule will reflect the changes. Once the President's 
budget is released on February the 10th, 2020, the NRC will be 
able to provide more specific information regarding the 
implementation of these provisions.
    In partnership with our internal and external stakeholders, 
we have taken several steps to improve invoice accuracy and 
transparency consistent with Section 102. We completed a new, 
monthly, standardized fee validation process starting in July 
2019. This new process improves accountability and oversight 
within the NRC to ensure that fee billing data are correct 
before appearing on a licensee's quarterly invoice.
    Specifically, we added new data elements to our information 
technology systems to identify the individuals responsible for 
validating billing charges, and we also created new reports for 
staff and managers to improve their analysis and provided 
training to responsible staff so that they were prepared for 
this change.
    In addition, the NRC implemented the new electronic 
billing--e-billing--system on October the 1st, 2019. This 
system was designed in consultation with a representative group 
of nine licensees that were involved throughout the development 
phase.
    The system includes the following improvements: eliminating 
mailing of paper invoices, providing licensees with the 
capability to analyze their invoices online, providing 
licensees with access to Treasury's payment system to pay their 
invoices, improving the timeliness of invoices, providing the 
capability to export invoice data easily for analysis and 
verification of charges, and it provides licensees with an 
efficient method to submit inquiries regarding their invoices 
by having questions immediately delivered by e-mail to the 
agency for research or action. Forty-five licensees have been 
enrolled in e-billing as of December the 27th, 2019.
    Section 202, Pilot Program for Uranium Recovery. As 
directed by NEIMA, the NRC provided a report describing the 
results of the pilot initiative to the Committee on January the 
10th, 2020. As discussed in the report, the NRC staff 
determined that while it could fairly and equitably establish 
flat fees for financial reviews and routine inspections for the 
single remaining uranium recovery NRC licensee in this fee 
class, the NRC ultimately decided to maintain its current fee 
billing structure as the current licensee appreciates the level 
of transparency provided by the current process.
    NRC will continue its communication with the remaining 
licensee and provide estimated costs for uranium recovery 
activities. In addition, the NRC staff has posted cost 
estimates for uranium recovery activities on the NRC's public 
Web site to give a general sense of what can be expected.
    Chairman Barrasso, Ranking Member Carper, distinguished 
members of the Committee, thank you again for the opportunity 
to appear before you, and I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Ficks follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much to both of you for 
your important testimony. We look forward to some questions.
    I will start, and we will have 5 minute rounds of 
questions.
    Ms. Doane, in 2018, the EPA withdrew what was an Obama 
administration midnight rule. This midnight rule would have 
added unnecessary red tape to the principal method of uranium 
production. The NRC raised substantial jurisdictional concerns 
to the EPA regarding the proposed rule.
    In 2017, I asked the EPA to sign a memorandum of 
understanding--an MOU--with the NRC to resolve the issue. For 
over a year, NRC and EPA have worked on this memorandum of 
understanding. The process, I believe, needs to be completed.
    Could you provide an update on the status of the Nuclear 
Regulatory Commission's engagement on this memorandum?
    Ms. Doane. Thank you for that question, Senator.
    Yes, the memorandum of understanding is in its final 
stages. The staff of both agencies have agreed in principle on 
a document, which I think, in my experience, is sometimes the 
hardest part of an endeavor like this.
    The next step is for us to finalize the documentation. It 
is formal documentation, because this is an enduring document. 
We are finalizing the documentation; it will then come to me, 
and then be moved on to the Chairman, because it is for her 
signature. So it is in the final stages, and I do not expect it 
to be very long.
    Senator Barrasso. Thank you. Another question. In December, 
the commission approved a staff proposal to establish emergency 
planning requirements for advanced nuclear technologies. The 
proposal accounts for the reduced risk of smaller and safer 
reactor designs.
    The Nuclear Energy Innovation and Modernization Act 
requires this approach, which we signed last year, but will you 
summarize the NRC's proposal and the historical basis for your 
recommendations?
    Ms. Doane. The proposal that we made to the staff for this 
draft proposed rule is based on a scaling, recognizing that 
larger reactors, the consequences could be very different for 
larger reactors than smaller reactors. As an example, existing 
reactors include over 1,000 megawatts, up to 1,400 megawatts, 
where the reactor I referred to earlier could be 1 megawatt.
    In summary, the approach is a scaling approach that would 
recognize for these consequences, the communities would be very 
well protected, even with a smaller emergency planning zone.
    Senator Barrasso. Mr. Ficks, the law limits how much 
funding the commission can request for overhead activities or 
corporate support costs. These include funding for human 
resources, for information technology.
    This new requirement is going to prioritize spending on 
activities that directly support the agency's mission to 
license and to oversee the use of nuclear material. What steps 
are you taking now to meet the new funding limitation in the 
NRC's 2021 budget proposal?
    Mr. Ficks. NRC has taken a lot of steps to reduce its 
budget. Since fiscal year 2014, we have actually decreased our 
budget from fiscal year 2014 to fiscal year 2020 by 
approximately 19 percent. In that same period, corporate 
support reduction resources have decreased as well by 19 
percent. We have decreased our space, our footprint.
    We have also re-baselined our activities. We have done 
careful FTE analysis to ensure that we do not overbudget, and 
we continuously look at our budget models. We look forward to 
discussing this more in detail once the budget is released in 
February the 10th.
    Senator Barrasso. Thank you on that. Because the law limits 
the amount that the commission can charge operating nuclear 
power plants, starting in this upcoming fiscal year; this is 
going to ensure that the remaining nuclear plants don't pay 
more to fund the agency to make up for lost revenue because 
other plants have shut down.
    I am concerned the commission may shift funding to 
circumvent the requirement, but what are you doing to reduce 
the portion of the agency's budget that the nuclear reactors 
fund?
    Mr. Ficks. Again, we have used analytics to look at our 
model for when a plant goes from operating to decommissioning, 
and we have adjusted the model and the budget formulation 
process. That has yielded very good results. You can see that 
in the fiscal year 2018 and fiscal year 2019 fee rule rates for 
operating reactor fee class, which actually are below the level 
specified in NEIMA, which is tied to the fiscal year 2015 fee 
rule, which is $4.8 million before it is adjusted for 
inflation.
    Senator Barrasso. Does this tie in, to say, a broader 
effort to reduce spending as additional reactors may shut down 
over time?
    Mr. Ficks. Yes.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    One of the things I love to do back in Delaware when we are 
not in session, and actually around the country, when I visit, 
I visit businesses, large and small. I call them customer 
calls.
    I ask three questions of those businesses. I ask, how are 
you doing, how are we doing, the Federal Government, our 
congressional delegation, the State of Delaware, and what can 
we do to help. I hear over and over again, one of the things we 
can do to help is to focus on work force. We have a tight labor 
market, as you know. There are like 5 million jobs going 
unfilled today because folks don't have the skills or education 
or desire to do those jobs.
    One of the things I always hear when I visit businesses is 
a need for certainty and predictability, certainty and 
predictability. At a time when businesses are having to put up 
with these changes in tariffs, in tariff laws imposed, not 
imposed, they want some certainty and predictability.
    Let me just ask this question of you, Ms. Doane. Do you 
believe the changes that we made are helping provide more 
certainty for the advanced nuclear licensing process? Since its 
implementation, have you received any more interest in 
stakeholders that may want to pursue an advanced nuclear 
license?
    That is my question. I am sticking with it.
    Ms. Doane. Yes, thank you, Senator.
    These changes are helping because we have looked at our 
processes and also our regulations to determine whether they 
have any obstacles as NEIMA mandates and make sure that we are 
improving these documents so that the users of these documents 
will be able to come into our processes. There will be a 
meeting of the minds, and an understanding of the timetables 
and the resources, so all of these things are providing 
predictability in how to use our processes, but also in the 
length of time that it would take in meeting these time scales.
    It is also giving us an understanding of the technology 
that they are going to be using so that we can get ahead. You 
were talking about skills, so that we can get ahead on what we 
need to know so that we can resolve questions earlier in the 
process, the sooner we know about these issues.
    Senator Carper. All right, thank you.
    I am going to build on the question raised by the Chairman 
a few minutes ago, and ask this. When we have multiple nuclear 
reactors closing, and as a result, additional spent fuel going 
into dry cask storage, you have proposed a dramatic reduction 
in dry cask storage inspections.
    I just wanted to ask if you, Ms. Doane, if you would 
explain why you think it is necessary to make this change at 
this time.
    Ms. Doane. Thank you, Senator, for that question.
    It is not a proposal yet. It is under consideration. There 
is a working group, and they are considering changes to the 
inspections for independent spent fuel storage facilities or 
dry cask storage facilities.
    Senator Carper. I hope that working group will just 
consider the question that I just raised.
    Thank you. Go ahead and finish your thought.
    Ms. Doane. Yes. I think the more interest that we have, the 
more views that we have, we do consider them. The changes are 
being made based on a long history of these processes and 
looking at the other inspection activities that are already 
going on. So they are looking at redundancy, but they are also 
looking at how we can do our work smarter.
    In any event, the inspection process, I can assure you, 
will remain adequately protective of public health and safety. 
We take these issues very seriously.
    Senator Carper. OK, thank you.
    Another question for you, if you don't mind, then we will 
pick on Mr. Ficks.
    For 60 years, the Halden test reactor in Norway had been 
used by nuclear fuel developers globally to test fuels. The 
three leading developers of accident tolerant fuel wanted to 
use the Halden test reactor for some critical testing. 
Unfortunately, the Norwegian government recently closed the 
Halden test reactor for good.
    My question would be, Ms. Doane, how is the NRC and 
industry testing the new accident tolerant fuel technologies, 
now that the Halden reactor is closed?
    Ms. Doane. I can take this question for the record, because 
I don't have all of the specifics. But at a very high level, I 
will tell you that we are relying on the Department of Energy 
and some of their testing, and they are already working with 
the fuel vendors, so we will rely on that testing.
    To the extent that other testing is done by our vendors, we 
would then validate that testing.
    You are right, that the Halden has closed, but we have 
given a lot of attention to that issue to ensure that there 
will be an adequate way of testing the fuel to make the safety 
decisions. More than that, I would want to take it for the 
record.
    Senator Carper. OK. Let's take it for the record, and just 
build on what you just gave me, OK? Thanks so much.
    Thanks, Mr. Chairman.
    Senator Barrasso. Senator Braun.
    Senator Braun. Thank you, Mr. Chairman, and thank you for 
your testimony.
    I am on Health, Education, Labor, and Pension. We just 
appointed a new FDA commissioner, and looking at the 
comparisons between regulatory bodies and the underlying 
industry, there is so much room for improvement there.
    You have got an industry that pushes things like patent 
thickets, dragging its feet to lower the cost of health care, 
and you have got an FDA that I think has been very stodgy in 
trying to help the cause as well.
    Recently, I was the first Republican to join the Climate 
Caucus, and that is going to be, along with the cost of health 
care----
    Senator Carper. Hopefully not the last.
    Senator Braun. True. I think it is going to be a discussion 
for a long time. I see, in the attempt to try to lower 
CO<INF>2</INF>, that advanced nuclear technology is the one 
bird in the bush that could be close to being a bird in the 
hand. I know our own Purdue University recently became the 
first nuclear reactor in the U.S. that converted to digital 
instrumentation.
    I think, and I would like your opinion, in a general sense, 
is the NRC in a position to accommodate, or is it like the FDA 
has been in my mind, more of an obstructor to moving in the 
right direction? And do you think that the timeframe will be 
there to where you, as the oversight body, and the industry 
itself is going to have enough to work with to push advanced 
nuclear technology to the forefront as maybe being our ace in 
the hole to address climate issues?
    That is kind of a broad, loaded question, and I would like 
your opinions, generally, on that.
    Ms. Doane. So part of the activities that we have been 
doing, a lot of the work that we have been doing is to ensure 
that we are not a barrier to new technology. I know you know we 
are not a promoter, but we also don't want to be a barrier. We 
understand the importance that the Committee places on advanced 
technology.
    We also agree that our licensing has to be predictable, so 
we are taking steps starting from the bottom of the agency all 
the way up to the top to transform in a way that we can have 
our processes perform in a way that are predictable, that we 
have looked at our regulations to ensure that they aren't a 
barrier. We have had to do a lot of changes with guidance and 
processes.
    Then finally, our people. We are making sure that they are 
trained. This is technology, that, if it comes in, it will be 
technology we have never seen before, so we are working on 
ensuring that they are trained.
    Senator Braun. That is good to hear. You said, if it comes 
in. What is your opinion of where it is currently?
    Ms. Doane. I would tell you that we--I might sound a little 
bit--if it comes in based on our experience in previous--about 
a decade ago, we built up the agency in a way and didn't 
materialize it as much as we thought it would. So that is 
probably my hesitancy, but we are told that it will come in. We 
are told that they are going to be filed and that later this 
month, or perhaps the very beginning of the next month will be 
the first non-light-water reactor, or microreactor.
    Senator Braun. Mr. Ficks.
    Mr. Ficks. I would just point to all the transformation 
efforts that we have undertaken within the office of the Chief 
Financial Officer to be more modern and risk informed. I think 
the e-billing example that I highlighted in my testimony gives 
you a sense of that. We also partner very closely with the 
program offices, including nuclear reactor regulation to ensure 
that there are adequate resources.
    Senator Braun. So, in summarizing, I think it is incumbent 
on you to be careful, but not create undue barriers. I think 
that, unlike the healthcare industry, I see an energy industry 
that is interested in trying to move to the forefront, bringing 
new technology to address CO<INF>2</INF>. It is good to hear 
that it sounds a lot better than my sense of what is happening 
in the healthcare arena.
    Thank you.
    Senator Barrasso. Thank you, Senator Braun.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I want to thank our witnesses. I first want to acknowledge 
the incredible work force we have at NRC. We are pretty proud 
of it, and very proud that it is located in the State of 
Maryland.
    I am concerned that we seem to be losing a lot of the 
experienced work force at NRC. The work that you do is the best 
in the world, as far as nuclear safety is concerned.
    Are we attracting the bright talent of the future to work 
at NRC, considering the circumstances of the Federal budget and 
the recruitment issues and the morale issues?
    I just raise that because to me, as we talk about the 
urgency that Senator Carper mentioned on climate change and how 
nuclear power is friendly toward our greenhouse gas and climate 
change issues, we also have to recognize that part of this is 
having the work force at NRC to be able to properly evaluate 
new technology, so that we can move aggressively in that 
direction.
    Our existing nuclear energy reactors are old, 1960s and 
1970s, most of them. They need attention. As we talk about 
bringing on new technologies, which are very important, we also 
have to recognize that maintaining the existing force in a safe 
manner to meet the energy needs of our country without 
contributing more greenhouse gas emissions is also a challenge.
    One of the reasons that I was very excited about the 
Nuclear Energy Innovation and Modernization Act is to deal with 
one of those issues that has made nuclear power not as 
competitive as it needs to be in the current marketplace in 
order to be able to get the type of investments to maintain our 
force, as well as to invest in new technologies. The regulatory 
process is just too costly, and we don't want to compromise 
safety. But we recognize that the process is too costly.
    When we are looking at having a somewhat level playing 
field on the sources of energy, nuclear is at a disadvantage. 
It is at a disadvantage because the regulatory cost is much, 
much higher than any other source of energy, including the 
fossil fuels.
    Then there is a second area that we don't have the level 
playing field or a competitive playing field, and that is in 
the tax structure. All energy sources except nuclear get help 
from the tax code in regard to their improvements and their 
explorations, et cetera, but nuclear does not.
    Senator Cramer and I have introduced legislation that would 
provide an investment tax credit in regard to the nuclear 
industry to try to provide some parity here.
    I know today's hearing is focused on how we can implement 
the law we passed a year ago to deal with the regulatory costs 
and how we can make sure that it is easier in regard to 
advanced nuclear technology.
    But my question is a little bit broader. Don't we have to 
deal with the economics of energy that is out there, and 
recognize that today, nuclear is really at a disadvantage, not 
only from the regulatory point of view, but from the tax point 
of view? And that if we want to attract the type of investment 
that we need, that we have to also take issue with the tax 
structures.
    I say that because three of the four members that are here 
also serve on the Finance Committee, and I hope that we will 
have a chance this year to take up an energy tax package.
    We were shortchanged in the omnibus bill that moved through 
the Congress. It was not, I think, fair toward the 
environmentally friendly energy sources. We are making it a 
priority to bring up that type of legislation in this Congress 
this year.
    I would hope that we would get some support for looking at 
the economics of fairness in the nuclear industry and take a 
serious look at Senator Cramer and my bill that would try to 
provide some degree of fairness in that regard.
    I have 56 seconds left; do either one of you want to 
comment? Fine. You want to endorse my bill? That is fine.
    Perhaps just dealing with the economics of energy sources 
today. We know that there is a lot of natural gas that is out 
there, and that is affecting the price. We know that we have 
significant fossil fuel production here in the United States as 
far as being sources. So we know that it has been a challenge 
from an economic point of view. Don't we have to deal with that 
in the reality? Just say yes.
    [Laughter.]
    Ms. Doane. Our hesitancy really isn't--it is just because 
of our role as safety regulators. We really don't play a role 
there.
    Senator Cardin. But you need to have investment by the 
private sector if this is going to work. Investment depends 
upon the economic model, and the economic model today is 
challenged.
    Ms. Doane. I understand, Senator Cardin, thank you. I will 
tell you for our part, what will be essential here is that our 
process is predictable. And as for making a very hard case on 
assuring adequate protection of public health and safety and 
security and the environment, we need to do it in a way that 
is--NEIMA mandates us to look at that and make sure that we are 
focused on the most significant safety issues and not to be 
distracted and create much more cost increases to things that 
aren't safety significant.
    So I think in some ways, it does feed into the points that 
you are making.
    Senator Cardin. Thank you, I appreciate that relevant 
response.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Before I ask my questions, let me make a point reacting to 
what you said earlier about nuclear waste and your desire to 
solve the nuclear waste problem. It is my observation that if 
our nuclear waste stockpiles were in the hands of private 
corporations, then the accounting methodology, to which private 
corporations are subject, would take a look at that as a 
liability.
    Whoever was doing their accounting reports or doing their 
shareholder reports would go, and they would say, wow, you have 
all this nuclear waste, that is a problem; And then they would 
do their level best to try to put a price on the problem, so 
they could be booked as a liability for shareholders and the 
public to know about.
    The instant that you put a number on that on a company's 
books, let's say the number is $2 trillion, I don't know what 
it is; it is a big number, I expect. Then that gives that 
company a $2 trillion minus $1 incentive to spend money to 
solve the problem. It is, right now, from an accounting 
perspective, free to have all this nuclear waste simply sit 
there with no solution.
    The flip side of that is that there is no market incentive, 
there is no financial reward, to anybody who solves the 
problem. That puts it on us, as Members of Congress, to force 
that solution. But I hope and expect that there may be a way to 
bring that market analysis to bear in the solution that you are 
trying to develop, and I look forward to working with you on 
that proposition.
    We would not have the problem we have if somewhere on the 
books of the United States of America was an X-billion dollar 
liability for this that affected our financial reporting. 
Somebody would be incented to solve the problem.
    So my question is to both of you. I just want to make sure 
that it is clear that a lot of the support for this, the 
bipartisan support for this, came because people care about 
some of the goals that we believe there is a chance for these 
modern nuclear technologies to achieve. There were two of them.
    I would ask you to guess what you think our two priorities 
were in supporting this legislation. What were the two policy 
goals that you think most drove us?
    Ms. Doane. You really want me to guess? OK.
    Senator Whitehouse. I would hope you would know. It was so 
clear that what our point was in giving you this power. If you 
don't know, then that is a big signal to me that we need to 
make it really clear why we did this.
    Ms. Doane. Yes, sir. I think that the most important goals 
would be to provide an energy source that is carbon-free.
    Senator Whitehouse. Bingo. Well said. That is one.
    Ms. Doane. No. 1, and that in addition, it would address--
so one would be carbon-free because of the climate issues that 
are being addressed. But the other is energy itself and the 
need for energy, and that this would be another source. I would 
say additionally, to keep involved in the national policy 
interest in staying involved in nuclear. So all of these things 
I think are rooted together.
    Senator Whitehouse. OK. You are getting a little bit closer 
with the last two, but I would not give you a passing grade on 
that. I would say that, you know, maybe good effort.
    What I would say one of our clear purposes was was to try 
to make sure that these new technologies, as they came online, 
explored the possibility of repurposing our existing nuclear 
waste stockpile. Some of these technologies have been proposed 
as promising to turn this massive liability into actually a 
positive value as a fuel.
    I don't know if that is going to pan out. I honestly don't. 
I am not a technologist. But people who are very smart about 
this, and who have invested millions and millions of dollars in 
these new technologies, tell me that that is their intention, 
that that is their purpose.
    So as you are looking at these new technologies, I very 
much want--and I think I speak for a considerable number of us 
who have encouraged, supported, and authorized you to do this--
we very much want to see that as this work gets done, it gets 
done in a way in which we are focused on the possibility of 
turning all that nuclear waste sitting around now as a health 
hazard and as an economic drag into something that could be 
positive.
    If, all things being equal, you have two different 
technologies that you could fund, or that you could pursue, or 
that you could authorize, I would urge that in every way you 
can, you lean toward the one that has the better chance of 
allowing us to repurpose this enormous, poisonous stockpile for 
which we have no other plan.
    Clear enough? Is that a yes from both of you? Because we 
don't have a record.
    Ms. Doane. Yes.
    Mr. Ficks. Yes.
    Senator Whitehouse. OK, then I have said my piece. Thank 
you very much for what you are doing to try to implement the 
law that we passed.
    Senator Barrasso. Thank you, Senator Whitehouse, for your 
continued leadership and thoughtfulness on this issue. Thank 
you.
    Senator Carper.
    Senator Carper. While Senator Whitehouse is still here, I 
spoke in my opening statement about the liability that we have 
on the Delmarva Peninsula that goes from an important industry 
for us, and the important industry is agriculture, and the 
important industry within agriculture is poultry. We have just 
huge numbers of chickens living in the Delmarva Peninsula.
    Senator Whitehouse. Rhode Island Reds, I hear.
    [Laughter.]
    Senator Carper. There you go. Yes and no.
    The liability that comes from that is this amount of 
chicken manure, which has the virtue of being high in 
phosphorus, high in nitrogen, which is coveted by farmers. But 
if used to a great extent, it creates runoff, it creates real 
problems for our friends in Maryland and the Chesapeake Bay and 
areas to clean up the Chesapeake and not end up with all these 
dead zones.
    I mentioned, I think before you got here, that I had lunch 
in Salisbury, Maryland, Ben's territory, with folks from 
Purdue, the big poultry operation and a company that uses 
European, German technology. They have over 200 facilities 
around the world where they actually take this liability, and 
they turn it into something that is good, sustainable energy 
and fertilizer.
    We get a lot of it; we have the potential to get so much of 
this off the peninsula, the Delmarva Peninsula, where we have 
way too much to be able to spread it in some other parts of the 
country where they could use it. It is like what Einstein used 
to say, in adversity lies opportunity.
    Laura Haynes is sitting right behind me, so my brain is on 
a bunch of issues, including this one. Several years ago, we 
were in France, and we visited some French facilities where 
they were trying to take spent fuel and figure out how to reuse 
it, repurpose it, recycle it, in order to drive some of the 
spent fuel, some of the energy that is right there in the spent 
fuel. I think there is still great potential for that. I think 
part of our job may be to figure out how to unleash that.
    Senator Whitehouse. The equation that waste plus technology 
can equal value, I think is the equation that we need to 
pursue, whether we are dealing with nuclear waste, or chicken--
--
    Senator Carper. Chicken litter.
    Senator Whitehouse. Thank you.
    Senator Carper. We call them ``nutrients.''
    [Laughter.]
    Senator Carper. I want to go back and revisit, if I could, 
with our panel on an issue sort of raised by our Chairman, and 
I touched on it as well.
    For our guests, do you believe that the NRC will have the 
resources needed in the long run? Do you believe the NRC will 
have the resources needed in the long run to do its job 
effectively? If the NRC does not have the needed funding, are 
there tools in the law to ensure that the NRC is able to inform 
Congress that additional funding is needed?
    And that would be for both of you.
    Mr. Ficks, why don't you take the first shot at that?
    Mr. Ficks. We believe that Congress has given us the 
support we need to get the resources we need, and we continue 
looking forward to interacting positively to make sure that 
that continues.
    Senator Carper. All right, thank you.
    Ms. Doane. Will you use fewer words? I thought he spoke too 
long.
    [Laughter.]
    Senator Carper. I am kidding. I wish, Mr. Chairman, all of 
our witnesses are so economical in their use of words for 
responses. They are probably wish that we were, too.
    Ms. Doane. OK. You know, what I think he says in those few 
words, it is so meaningful, so it is a good economy of words.
    Yes, I agree with Ben that we have had the adequate 
resources, and we recognize that, for example, there are caps 
that will come into play in 2021, and we look forward to 
building our budgets to ensure that we have adequate resources. 
At this time, we have adequate resources in fiscal year 2020.
    Senator Carper. I guess the question is about the long term 
in making sure that if it turns out that you don't have the 
resources for the long term, do you feel that our law is 
adequate to ensure that the NRC is able to inform Congress that 
additional funding is needed?
    Ms. Doane. I do, because there are the caps in the 
legislation, but there is also a provision that says that, to 
take into consideration if these caps are practical. I think 
with that two part process, that it is adequate for us to get 
the funding that we need.
    But I will add that it will be challenging in the future to 
continue to bring down, I don't want to leave a misimpression, 
to continue to bring down corporate costs, for example, because 
we have been bringing this, as Ben had said, we have been 
bringing down this cost over the years. Since 2014 we have 
brought these costs down dramatically.
    So we have already taken advantage of the most obvious ways 
of reducing those costs, like space and things like that. In 
the future, it will get tougher and tougher to find these 
things. But like I said, the legislation does provide then a 
provision to say that these caps are applied, and then if it is 
practical.
    Senator Carper. All right, thanks so much.
    Thanks, Mr. Chairman.
    Senator Barrasso. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, Ranking 
Member.
    Thank you for your testimony today.
    I have a few questions regarding the interaction between 
this effort to innovate our nuclear reactors and nuclear 
nonproliferation, because NEIMA was designed primarily to 
update the NRC's licensing framework for advanced nuclear 
reactors and technologies. It will help ensure that our 
domestic regulatory structure evolves in tandem with nuclear 
technology.
    But I think it is also important that as nuclear 
technologies progress, the international nonproliferation 
regime evolves as well. Part of the reason that we are trying 
to advance these new technologies is obviously our domestic 
industry, but we also hope that with the proper safeguards, 
this will allow some of these new reactors to be located 
overseas.
    There are some reactor designs that could pose 
proliferation issues. Specifically, those that would use 
proliferation sensitive fuels, like uranium fuel enriched to 
close to 20 percent HEU, while others would use a closed fuel 
cycle that would be capable of producing spent fuel that 
contains weapons grade plutonium.
    Production of those fuels and the spread of reprocessing 
technologies may run up against longstanding U.S. policy to 
secure global supplies of fissile material. On top of that, the 
IAEA has indicated that several advanced reactor designs could 
pose safeguard challenges and make monitoring of nuclear 
facilities more difficult than it is today.
    I have a couple questions related to that, and I am 
wondering whether in your licensing criteria and evaluation of 
advanced nuclear reactors, whether the NRC has taken into 
account the ``safeguards by design'' measures that would 
facilitate the implementation of international IAEA safeguards.
    Ms. Doane. Yes. Our reactor licensing process will take 
into consideration the implementation of the safeguards 
measures. As you know, our regulations provide for our agency 
to review the safeguard methods that are used at these reactor 
facilities to ensure that there is not--to reduce the threat or 
the up diversion and other issues that this addresses. Our 
licensing does, yes.
    Senator Van Hollen. Have you been in direct communication 
with the folks at the IAEA to discuss how this will work and 
how your work here meshes with their international safeguards?
    Ms. Doane. I personally have not. For the record, I can get 
back to you.
    Our staff is very active in the area of safeguards and 
ensuring that the U.S. complies with all of its obligations, 
but specifically, whether our staff has been discussing this 
particular issue with the IAEA with safeguards by design, I 
would request to take that for the record.
    Senator Van Hollen. Got it. OK, if you could get back to us 
in writing. I also have some other written questions on this 
topic. Because I do, I think as many of my colleagues do, hope 
that we will be able to innovate in this area of nuclear 
technology for a variety of reasons.
    At the same time, we need to be very careful in making sure 
that it doesn't undermine the nuclear nonproliferation regime 
that we have worked very hard to build over a period of time.
    I hope that will be done in tandem going forward, in fact, 
not just hope. We are going to work with you to insist that 
that be done in order to protect against the risks of nuclear 
nonproliferation.
    Thank you both for being here.
    I will submit some additional questions for the record.
    Senator Barrasso. Thank you, we welcome those.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    As you may know, Senator Whitehouse and I sent a letter to 
Chairman Svinicki regarding the post-Fukushima rule that was 
finalized by the commission last January. As you may know, 
these changes made by the commission were against staff 
recommendations.
    Senator Whitehouse and I expressed concerns that changes to 
the final rule made by the chairman missed the mark in 
addressing the lessons learned from the Fukushima Daiichi 
nuclear accident.
    My question, and I guess this would be to you, Ms. Doane. 
Our Nation's leading scientists tell us that flooding and storm 
surges will continue to be the new normal in many parts of the 
country, many parts of the world, as we are reminded of in 
Australia today due to climate change. Do you still believe our 
Nation's nuclear reactors should be required to be able to meet 
the new flooding hazards that now exist due to climate change?
    Ms. Doane. Yes, I do agree that they should meet the 
hazards at the facilities. Yes.
    Senator Carper. All right. Did the commission miss the mark 
when they overturned the recommendations from you and your 
staff?
    Ms. Doane. As the staff, we will implement those directions 
in a way that ensures adequate protection of public health and 
safety with respect to reevaluated hazards, which is the issue 
that was raised.
    At this time, we are receiving documentation from the 
licensees on how they are going to meet those reevaluated 
hazards, and we have the authority to take all measures 
necessary for adequate protection and also take measures where 
we can demonstrate a substantial benefit to safety that is 
justified by the cost of new changes.
    So, yes, we have the full authority to ensure adequate 
protection, even for the reevaluated hazard.
    Senator Carper. Mr. Chairman, can I ask just one more short 
question?
    Senator Barrasso. Go right ahead.
    Senator Carper. Sometimes we ask questions of you that you 
are able to answer, and sometimes you ask to be able to answer 
for the record.
    I am going to answer a different kind of question. For each 
of us, give us one question that you wish you had been asked. I 
want each of you to give us one question you wish you had been 
asked.
    Mr. Ficks. Do you like working at NRC?
    [Laughter.]
    Senator Carper. Do you like working at NRC?
    Mr. Ficks. I do, I love it.
    [Laughter.]
    Senator Carper. That is a good question. Do you want to ask 
us the same question?
    Mr. Ficks. Do you like working at the Senate?
    Senator Carper. Almost every day.
    [Laughter.]
    Senator Carper. One or 2 days we could probably get by 
without, but mostly we get a lot more done. We work a lot 
better together, especially in this Committee, than you read 
about it or hear about it in the media. They like to report bad 
news and conflict. We are not very good at conflict.
    Ms. Doane, same question. Give us a question that you wish 
you had been asked. You can't use the same question.
    Ms. Doane. Darn it, because it was a really good one, and 
it was short, again. He has got a good economy with words.
    Senator Carper. It is his nature.
    Ms. Doane. Yes. So, the question I would want you to ask me 
is, the staff of the NRC is incredible. They are so well 
trained and I would have wanted to be asked, are we doing 
everything we can to both retain them and recruit staff to meet 
the needs of the future?
    Senator Carper. I would like to ask that question, with 
your permission. How would you respond?
    Ms. Doane. I would respond in that we are very focused on 
ensuring that we get them what they need. On these--with 
respect to advanced reactors, our staff is very open minded, 
and they are looking forward to this. They actually look at 
this as a great possibility and good work to be done for the 
country. They are very enthusiastic.
    So, yes, we are looking our program start to finish, making 
sure we identify gaps and using staff that is already there. 
When the number of issues go down, like with a reactor closing, 
taking staff and moving them over and getting them 
opportunities for transformational learning.
    Also, recruiting good staff, we have put in place a new 
apprenticeship program. We are going to have our first class 
this summer, so we are very excited about that. We have gone 
out to universities, and really ensuring that we are going to 
retain, bring in new staff, but also retain those really 
important staff that are there doing such a great job.
    Senator Carper. Well, that was a really great question. I 
thought a pretty good answer, too.
    Mr. Ficks, you get one more shot if you have a more serious 
question.
    Mr. Ficks. I guess the question would be, do you really 
think NRC is becoming more modern.
    Senator Carper. Do you?
    Mr. Ficks. Yes. I tried to put the success stories in my 
written testimony, just to make it very clear to you, but these 
things don't happen overnight. They are a lot of work, and my 
office, the Chief Financial Officer's office, has invested a 
lot in fee transformation over the past 4 years, and I think 
you are really seeing the yields of all that investment and 
hard work, like the e-billing. We see that as a capstone, and 
that fee validation process.
    We are excited about the successes, and we want to continue 
those.
    Senator Carper. Great. Thank you both.
    Senator Barrasso. If there are no more question from the 
Senators, or questions of yourself, members may submit follow 
up written questions for the record, and if you have additional 
questions you would like to ask yourself, please include those 
as well for the record because the hearing record is going to 
stay open for 2 weeks.
    [Laughter.]
    Senator Barrasso. With that, I want to thank you both for 
your testimony and for your cooperation and for all your help 
today in understanding some of the complexities that we are 
facing. Thank you.
    With that, the hearing is adjourned.
    [Whereupon, at 11:07 a.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
